 OFFICE OF AUDIT
 REGION 9
 LOS ANGELES, CA




           Public Housing Capital Fund Program,
                     Washington, DC




2012-LA-0004                             SEPTEMBER 21, 2012
                                                        Issue Date: September 21, 2012

                                                        Audit Report Number: 2012-LA-0004




TO:            Dominique Blom, Deputy Assistant Secretary for Public Housing Investments, PI

               Donald J. Lavoy, Deputy Assistant Secretary for Field Operations, PQ

               ///SIGNED///
FROM:          Tanya E. Schulze, Regional Inspector General for Audit, Los Angeles Region 9,
               9DGA

SUBJECT:       HUD Did Not Ensure Public Housing Agencies’ Use of Property Insurance
               Recoveries Met Program Requirements


       Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our audit of HUD’s Public Housing Capital Fund
program monitoring procedures, which are also applicable to the American Recovery and
Reinvestment Act of 2009 Capital Fund program.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(213) 534-2471.
                                            September 21, 2012
                                            HUD Did Not Ensure Public Housing Agencies’ Use of
                                            Property Insurance Recoveries Met Program
                                            Requirements



Highlights
Audit Report 2012-LA-0004


 What We Audited and Why                     What We Found

We initiated a review of the U.S.      HUD did not adequately monitor insurance recoveries
Department of Housing and Urban        to ensure that public housing agencies appropriately
Development’s (HUD) Public Housing     applied the applicable credits either as a cost reduction
Capital Fund program and American      or cash refund as appropriate. HUD’s program
Recovery and Reinvestment Act          guidance was outdated and the procedures for the
(Recovery Act) Capital Fund program    annual in-office review of the agencies’ ongoing
monitoring procedures because it was   capital activities and for monitoring Recovery Act
included in our annual audit plan and  program grants were not sufficiently detailed to
was prompted by a prior external audit address the review of insurance recoveries. In
(Office of Inspector General (OIG)     addition, the information HUD required agencies to
audit report 2011-LA-1802, issued May  submit in their annual plans and in HUD’s Financial
5, 2011).                              Assessment Sub-System lacked sufficient details to be
                                       effectively used in the monitoring of insurance
Our objective was to determine whether recoveries.
HUD’s Capital Fund program
monitoring procedures and reporting
system details were adequate to ensure
that public housing agencies disclosed
and used property insurance recoveries
in accordance with program
requirements.

 What We Recommend

We recommend HUD update its
information collection requirements to
ensure that public housing agencies
disclose insurance recoveries, revise its
policies and procedures to ensure
oversight of the disclosure of insurance
recoveries, and issue a notice with
guidance for public housing agencies
related to the procedures for the
disclosure and use of insurance
recoveries.
                           TABLE OF CONTENTS


Background and Objective                                                     3

Results of Audit
      Finding: HUD Did Not Ensure Public Housing Agencies’ Use of Property
               Insurance Recoveries Met Program Requirements                 5

Scope and Methodology                                                        10

Internal Controls                                                            12

Appendixes
A.    Auditee Comments and OIG’s Evaluation                                  13
B.    Criteria                                                               17




                                           2
                      BACKGROUND AND OBJECTIVE
The United States Housing Act of 1937, codified at 42 U.S.C. (United States Code) 1437,
established the Federal framework for government-funded affordable housing. The United
States Congress established public housing to promote the general welfare of the United States
by employing the funds and credit of the United States to assist public housing agencies in
providing decent and safe dwellings for low-income families. One amendment to this Act, the
Quality Housing and Work Responsibility Act of 1998, established the Public Housing Capital
Fund program—formerly the Comprehensive Grant Program.

The U.S. Department of Housing and Urban Development (HUD), Office of Public and Indian
Housing (PIH), Office of Capital Improvement, administers the program. The PIH Office of
Field Operations oversees the HUD field offices that monitor public housing agencies. The Real
Estate Assessment Center, Financial Assessment Division, reviews the agencies’ financial
statements to assess the financial condition of public housing properties and verifies compliance
with HUD financial requirements.

HUD disperses capital funds to public housing agencies under annual contributions contracts to
provide funding for development, financing, modernization, and management improvements. In
fiscal years 2009 through 2011, HUD provided more than $10 billion in program funding to
3,139 agencies through the following types of grants:

       Formula – Distributed to agencies annually via a formula method.

       Replacement housing factor – Awarded to agencies that have removed units from
       inventory for the sole purpose of developing new public housing units.

       Disaster and emergency – Awarded to agencies that confront a non-federally declared
       disaster or emergency situation and provide a required independent cost estimate at the
       time of application for funds.

       American Recovery and Reinvestment Act of 2009 – Distributed in fiscal year 2009
       partially by the same formula used for amounts made available in fiscal year 2008 and on
       a competitive basis.

       Capital Fund education and training community facilities – Distributed in fiscal year
       2010 to agencies to (1) construct new community facilities, (2) purchase or acquire
       facilities, or (3) rehabilitate existing facilities to be used as education and training
       community facilities by agency residents.

The public housing agency’s plan is a comprehensive guide to its policies, programs, operations,
and strategies for meeting local housing needs and goals. There are two parts to the plan: the 5-
year plan, which each agency submits to HUD once every fifth agency fiscal year, and the annual
plan, which is submitted to HUD every year in a standardized electronic format. The annual plan
serves as the annual application for Capital Fund program grants. It includes a section in which
agencies that operate public housing describe the capital improvements necessary to ensure the


                                                 3
long-term physical viability of public housing developments. If the agency is eligible for Capital
Fund program funding, it also completes Capital Fund program tables and submits them as an
attachment to the annual plan. The tables consist of one standard table (Form HUD-50075.1)
that is used either as an annual statement or performance and evaluation report.

Under HUD’s reporting model, agencies submit annual audited financial statements to HUD’s
Real Estate Assessment Center in electronic format using the Financial Assessment Sub-System
for Public Housing (FASS-PH). The financial data in FASS-PH are reported in accordance with
generally accepted accounting principles as set by the Governmental Accounting Standards
Board.

The annual contributions contract between public housing agencies and HUD requires that
agencies maintain specified insurance coverage for property and casualty losses. Agencies can
purchase insurance coverage from risk retention groups that are approved by HUD in accordance
with standards established by regulation.

Our objective was to determine whether HUD’s Public Housing Capital Fund program
monitoring procedures and reporting system details were adequate to ensure that public housing
agencies disclosed and used property insurance recoveries in accordance with program
requirements related to applicable credits and ineligible duplication of costs for repairs covered
by insurance recoveries.




                                                 4
                                       RESULTS OF AUDIT


Finding: HUD Did Not Ensure Public Housing Agencies’ Use of
         Property Insurance Recoveries Met Program Requirements
HUD did not adequately monitor insurance recoveries to ensure that public housing agencies
appropriately applied the applicable credit to their Capital Fund programs. A prior audit found
that an agency had mischarged its American Recovery and Reinvestment Act Capital Fund
program even though it had received insurance recoveries. HUD’s program guidance was
outdated and the procedures for the annual in-office review of the agencies’ ongoing capital
activities and for monitoring Recovery Act program grants were not sufficiently detailed to
address the review of insurance recoveries. In addition, the information HUD required agencies
to submit as part of their annual plans and audited financial statements lacked sufficient detail to
monitor insurance recoveries. As a result, HUD had little assurance that agencies properly
disclosed and used up to $70 million (estimated) in property insurance recoveries per year in
accordance with program requirements.


    HUD Did Not Monitor
    Significant Insurance
    Recoveries

                 We obtained agency insurance recovery data from Housing Authority Property
                 Insurance (HAPI)1, who provided property insurance coverage to 555 PHAs, and
                 found that several agencies received significant recoveries. We selected a
                 nonstatistical sample of 10 agencies that had received the highest insurance
                 recoveries from HAPI between 2009 and 2011. These agencies received more
                 than $12.2 million in combined insurance recoveries over the 3-year period, and
                 three received more than $1 million in insurance recoveries in a single given year.
                 As a result, the application of the insurance recoveries would be significant to
                 these agencies’ housing programs. However, HUD did not specifically monitor
                 the insurance recoveries of the selected agencies for compliance with its
                 Comprehensive Grant Program Guidebook 7485.3 G, Chapter 2, Section 2-20,
                 paragraph 2-20(A)(5) and 2 CFR 225, to ensure the that costs reimbursed by
                 insurance recoveries were not duplicated to the Capital Fund program and that the
                 agencies appropriately applied the insurance recoveries either as a cost reduction
                 or cash refund as appropriate.2



1
  HAPI is a nonprofit, tax-exempt mutual insurance company that is owned by agencies.
2
  We did not perform additional testing to determine how the 10 sample agencies used the applicable property
insurance recoveries or if they had charged their Capital Fund or Recovery Act programs. As a result, there is no
indication that these 10 agencies violated program requirements.


                                                         5
Agency Mischarged Recovery
Act for Costs Reimbursed by
Insurance Recoveries

           We conducted a prior external audit of the Housing Authority of City of Los
           Angeles to determine whether the agency’s use of Recovery Act capital funds on
           hazard-damaged units subject to property insurance recoveries met HUD
           requirements. We found that the agency improperly charged its Recovery Act
           Capital Fund program without applying cost reductions or credits related to
           insurance recoveries (OIG audit report 2011-LA-1802, issued May 5, 2011). We
           recommended that over $83,000 be credited to the agency’s Recovery Act Capital
           Fund program and for HUD to consider pursuing remedies under the Program
           Fraud Civil Remedies Act. During the course of this audit we became aware that
           HUD had no policies or procedures for monitoring agencies’ disclosure and use of
           insurance recoveries.

Program Guidance Was
Outdated and Lacked Detailed
Written Procedures

           HUD’s Capital Fund program and Recovery Act Capital Fund program
           monitoring procedures and controls were inadequate to meet HUD Handbook
           1840.1, REV-3, section 1-2, requirements to protect against fraud, waste, and
           mismanagement of insurance recoveries. HUD’s Comprehensive Grant Program
           Guidebook 7485.3 G was outdated and not sufficiently detailed to specifically
           address the review of insurance recoveries.

           HUD’s Guidebook Was Outdated
           Although the Guidebook was implemented in October 1996 for the
           Comprehensive Grant Program, at the time of our audit fieldwork, it was being
           used by HUD as the guidance applicable to its Capital Fund program. The
           Guidebook provided instructions, guidance, and processing procedures for use by
           public housing agencies and HUD field offices. The Deputy Assistant Secretary
           for the Office of Field Operations informed us that HUD’s Guidebook was out of
           date. HUD had been working on new Capital Fund program regulations but
           planned to update the program forms and Guidebook when the proposed third
           Capital Fund program rule (published February 7, 2011) is made final to complete
           the implementation of the Quality Housing and Work Responsibility Act and the
           Housing and Economic Recovery Act.

           HUD’s Monitoring Procedures Lacked Details Related to Insurance Recoveries
           Chapter 12 of the Guidebook set forth requirements for an annual in-office review
           of agency performance. However, the procedures to be followed during the
           annual in-office review of the agency’s ongoing capital activities identified in the
           annual plan were not detailed and did not specifically discuss the review of


                                            6
           insurance proceeds. The procedures inquired whether “Activities funded with
           non-CGP [Comprehensive Grant Program] funds are identified”; however, they
           did not specifically inquire whether any of the listed activities would be partially
           funded with nonprogram funds or identify the type of other nonprogram funds.
           We reviewed the HUD monitoring reports for our sample of public housing
           agencies, and none stated that the field offices had reviewed insurance recoveries.

           Additionally, HUD’s monitoring of Recovery Act Capital Fund program funding
           did not specifically address insurance recoveries. During our sample review of
           the HUD-prescribed checklist used for monitoring Recovery Act program grants,
           none had an area that specifically monitored the disclosure or use of insurance
           recoveries. HUD’s Recovery Act oversight and quality assurance strategies were
           also not applicable to other program funds.

Insurance Recovery Reporting
Was Inadequate

           HUD requires public housing agencies to submit annual plans and annual
           financial statements. However, the information HUD required the agencies to
           report did not sufficiently specify insurance recoveries. As a result, these reports
           were insufficient to mitigate the risk of agencies’ duplicating costs to the Capital
           Fund and Recovery Act Capital Fund programs when insurance recoveries were
           received.

           The Annual Plan Capital Fund Program Tables Lacked a Disclosure Field for
           Insurance Recoveries
           The Capital Fund program tables on the annual plan did not sufficiently disclose
           insurance recoveries. Should an agency anticipate or have used insurance
           recoveries in conjunction with program funding, the agency was to report those
           funds to HUD on line No. 1, “Total non-CFP Funds,” of the tables. However, the
           tables did not have a specific field to disclose insurance recoveries. As part of our
           sample testing, we reviewed the tables for formula, replacement housing factor,
           Recovery Act, emergency, and disaster program grants, and only one table for a
           disaster grant disclosed insurance recoveries used in conjunction with program
           funding. Staff from HUD’s field offices stated that there were no specific control
           mechanisms in place to ensure that agencies disclosed other resources they had or
           may receive that would be used in conjunction with program funds. HUD would
           be unaware of insurance recoveries unless it was informed by the agency or it
           became known to a HUD staff member while reviewing an agency’s proposal for
           a development, which would include the sources of the funds budgeted for the
           development.




                                             7
                 Financial Statement Submissions Lacked Insurance Recovery Details
                 The annual financial statement information HUD required agencies to submit to
                 FASS-PH did not specifically disclose insurance recoveries. There are several
                 line items in FASS-PH that may relate to property insurance recoveries, including
                 financial data schedule line items:

                          97200, Casualty Losses – Non-Capitalized;

                          71500, Other Revenue;

                          112, Cash – Restricted – Modernization and Development; and

                          125, Miscellaneous Accounts Receivable.

                 Although many of our sample agencies identified balances under these line items,
                 there was insufficient detail in FASS-PH to confirm them to the insurance
                 recovery amounts paid by the insurance provider (HAPI). Six of the sampled
                 agencies’ financial statements merely disclosed having insurance coverage, and
                 only one agency disclosed that it expected to receive insurance recoveries for
                 property damages. Although Government Accounting Standards Board Statement
                 No. 42 states that the amount and financial statement classification of insurance
                 recoveries should be disclosed if that information is not already evident from the
                 face of the financial statements, the provision need not be applied to items
                 immaterial to the financial statements as a whole. As a result, there was no clear
                 indication that the sampled agencies misreported their insurance claim proceeds,
                 only that there was insufficient detail to verify the amounts identified by the
                 insurance provider with the financial statements submitted to HUD.

    Conclusion

                 HUD’s outdated and inadequate monitoring procedures and the lack of disclosure
                 requirements for the receipt and use of insurance recoveries was an internal
                 control weakness. As a result, HUD had little assurance that public housing
                 agencies properly disclosed and used up to $70 million (estimated)3 in property
                 insurance recoveries per year in accordance with HUD requirements. This
                 weakness increased the risk that agencies may have duplicated property loss
                 repair costs or not credited the applicable insurance recoveries to their Capital
                 Fund programs, including Recovery Act programs, as noted in a prior audit
                 (2011-LA-1802, issued May 5, 2011).




3
  Since HUD did not maintain information on total insurance recovery amounts, we estimated the amount using the
$22,330 average annual insurance recovery identified by the insurance provider multiplied by the 3,139 agencies
that received program funding in fiscal years 2009 through 2011, under the assumption that the insurance recoveries
would be representative of the HAPI amounts.


                                                         8
Recommendations

          We recommend that the Deputy Assistant Secretary for Public Housing
          Investments, in collaboration with the Deputy Assistant Secretary for Field
          Operations:

          1A.     Update HUD’s information collection requirements to ensure that public
                  housing agencies disclose the receipt and use of insurance recoveries.

          1B.     Revise its policies and procedures to ensure that HUD field offices
                  specifically monitor public housing agencies to ensure that they disclose
                  and use property insurance recoveries in accordance with applicable
                  requirements.

          1C.     Issue a notice with guidance for public housing agencies to follow related
                  to the procedures for the disclosure and use of insurance recoveries, which
                  can later be incorporated in the Guidebook.




                                           9
                           SCOPE AND METHODOLOGY

Our review generally covered Federal fiscal years 2009 through 2011. We performed our audit
work from January through June 2012 from our OIG office in Los Angeles, CA.

To accomplish the audit objective, we reviewed potential areas in which property insurance
recoveries may be identified by public housing agencies or reviewed by HUD and tested our
sample of agencies against those procedures and documents. Specifically, we

        Reviewed applicable laws and regulations, including Federal regulations and HUD
        handbooks and guidebooks.

        Reviewed HUD’s internal policies and procedures related to field office monitoring and
        the policies and procedures that the field offices are to follow during their monitoring of
        Capital Fund and Recovery Act Capital Fund program grant recipients.

        Reviewed HUD’s procedures for agencies related to the disclosure of insurance
        recoveries to be used in conjunction with Capital Fund and Recovery Act Capital Fund
        program grant funds.

        Conducted interviews with staff from HUD’s PIH Office of Capital Improvements,
        Office of Field Operations, Office for Public Housing and Voucher Programs, Real Estate
        Assessment Center, and field offices.

        Obtained public housing agency property insurance recoveries data from HAPI, as this
        information was not available from HUD.

        Selected a sample from the HAPI property insurance recoveries data for testing (see
        below) and reviewed HUD monitoring reports and information agencies reported to HUD
        (including annual plans and FASS-PH) and disclosed in their audited financial
        statements.

We nonstatistically selected a sample of 10 agencies that received property insurance coverage
from HAPI with the largest total claims paid amount (excluding Moving to Work agencies4).
The agencies in our sample received more than $12.2 million in insurance claim proceeds
between January 1, 2009, and November 30, 2011. The cumulative insurance claim proceeds
represented 6 percent of the total fiscal years 2009 through 2011 Capital Fund program formula
grant funding received by the sampled agencies, or 3 percent, including the Recovery Act
program funding. We were unable to determine whether the insurance recoveries were related
only to Capital Fund program projects, as some agencies may have received insurance recoveries
on other non-Capital Fund projects.

4
 Moving to Work agencies were excluded from our review because they have exemptions from many existing
public housing and voucher rules and more flexibility with how they use their Federal funds.



                                                    10
Testing was performed to assess the reliability of the computer-processed data obtained from
HAPI, HUD, and FASS-PH, given the audit objective and intended use of the data. The
reliability of insurance recoveries data provided by HAPI was evaluated during this audit and our
prior audit (OIG audit report 2011-LA-1802, issued May 5, 2011) by confirming the data for
various claims with copies of canceled checks. The reliability of the program funding
information provided by HUD was validated with minimal inaccuracies, i.e. revised and
cancelled grants, with copies of executed annual contributions contracts. Lastly, the reliability of
the data reported in FASS-PH was confirmed by matching the amounts reported in the FASS-PH
revenue and expense and balance sheet summaries to the amounts reported in the available
financial data schedules attached to some of the agencies’ audited financial statements. We
determined that a further detailed assessment was unnecessary, as Real Estate Assessment Center
staff reviews each agency’s financial information annually for accuracy and completeness. The
data from HAPI and FASS-PH were used, as they were the only readily accessible data available
on the subject.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                11
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                      Policies and procedures – Controls designed to ensure that public housing
                      agencies disclose and use property insurance recoveries in accordance
                      with HUD Capital Fund and Recovery Act Capital Fund program
                      requirements.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control
               does not allow management or employees, in the normal course of performing
               their assigned functions, the reasonable opportunity to prevent, detect, or correct
               (1) impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information or (3) violations of laws and regulations on
               a timely basis.

 Significant Deficiency

               We evaluated internal controls related to the audit objective in accordance with
               generally accepted government auditing standards. Our evaluation of internal
               controls was not designed to provide assurance regarding the effectiveness of the
               internal control structure as a whole. Accordingly, we do not express an opinion
               on the effectiveness of HUD’s internal control.




                                                12
                                         APPENDIXES

Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation                              Auditee Comments
                             U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT
                                                 WASHINGTON, DC 20410-5000

             OFFICE OF PUBLIC AND INDIAN HOUSING




             MEMORANDUM FOR:                   Tanya E. Schulze, Regional Inspector General for Audit,
                                                     Region IX, 9DGA

             FROM:              Dominique Blom, Deputy Assistant Secretary for
                                  Public Housing Investments, PI

                                Donald J. Lavoy, Deputy Assistant Secretary for
                                  Field Operations, PQ

             SUBJECT:           Response to draft audit report on HUD monitoring of insurance
                                  proceeds


                      The Office of Public and Indian Housing (“PIH”) is in receipt of the draft audit report
             produced by your office and transmitted on August 3, 2012. PIH appreciates the OIG’s study of the
             important issues surrounding PHAs’ receipt and use of insurance proceeds when the public housing
             inventory has been damaged.

                       The draft audit report estimated the total insurance proceeds paid to PHAs to be up to $70
             million in any given year. 1 As the OIG correctly observed, the receipt of these funds is governed by
             both HUD authority and other applicable government-wide authority. With regard to HUD’s
             authority, the Consolidated Annual Contributions Contract (“ACC”) requires that PHAs carry
             insurance to protect the PHA from financial loss and requires that proceeds, to the extent possible,
             be used promptly to restore, reconstruct, or repair damaged or destroyed property unless waived in
             writing by HUD.2 The proceeds are program receipts, as defined in the ACC and are restricted by
             HUD policy as established within ACC as well as guidance related to financial disclosure and audit
             requirements for Public Housing program assets. HUD control of insurance proceeds is limited
             given that these amounts are not distributed by the Department and instead originate external to
             HUD’s federal subsidy amounts. They are paid to the PHA on a transaction by transaction basis and
             the Department must rely on PHA financial disclosure.

                       PIH does not believe that the self-reporting of insurance proceeds, on its face, constitutes
             an internal control weakness. The Government Accountability Office’s Standards for Internal
             Control in the Federal Government (“the Green Book”)3 and Office of Management and Budget
             Circular A-123 Management’s Responsibility for Internal Control4 define the obligations of federal
             agencies to have internal controls in place and to ensure that the controls are sufficient to
             ____________________________
             1
               Draft Audit Report pg. 8.
             2
               Part A, § 13.
             3
               Government Accountability Office, STANDARDS FOR INTERNAL CONTROL IN GOVERNMENT (Nov. 1999).
             4
               Office of Management and Budget, CIRCULAR A-123: MANAGEMENT’S RESPONSIBILITY FOR INTERNAL CONTROL
             (Dec. 21, 2004).


                                                     13
            provide reasonable assurance, but not absolute assurance, that the agency’s objectives will be
            met. The compliance supplement for the Public Housing Capital Fund program provides, “[Its]
            primary objective . . . is to make assistance available to [PHAs] to carry out capital and
            management improvement activities.”5 HUD’s internal controls, then, are designed to ensure
            that PHAs use the funds provided through the Capital Fund formula to carry out capital and
            management improvement activities.

                     PIH is of the view that current requirements meet the standard of providing
            reasonable assurance, but not absolute assurance, that the agency’s objectives will be met. 6
Comment 1   The draft audit report addresses four FDS line items that may capture reported insurance
            proceeds. However, HUD’s FDS Line Definition Guide clarifies that these are to be reported
            on “Line 112, Cash – Restricted – Modernization and Development.”7

                      The draft audit report recommends that a line item specific to insurance proceeds be
            added to the Capital Fund Annual Plan, Form 50075.1. 8 This form, as is recognized in the
            report, has a line item for “Total Non-[Capital Fund Program] Funds.” PIH would expect that
Comment 2   this line would infrequently contain any specific value because of the way in which the Capital
            Fund grants are made. Specifically, Capital Fund grants are awarded on a PHA level to be
            spent on eligible activities at any PHA properties covered by an ACC and a Declaration of
            Trust. The Form 50075.1 captures grant activity by budget line item. To report non-grant
            funding at the grant level would not necessarily provide the information that PIH believes the
            OIG is seeking. This is not true, however, in the case of Capital Fund Emergency or Natural
            Disaster Grants. The approval letters for these grants expressly state that funds made available
            should be the net of any insurance proceeds provided to meet the condition for which the grant
            is made. In this case, the specificity of the nature of activities for which funds are made
            available makes it more plausible non-CFP funds should appear without over-complicating
            grant accounting.

                      Despite its belief that the internal controls are adequate to mitigate the risk identified
            by the OIG, PIH agrees that the public would be served by increased transparency in the
            receipt and use of insurance proceeds by PHAs. Furthermore, PIH, as a prudent investor in
            properties with insufficient resources to meet the extensive needs of the inventory, would
            benefit from more actively asserting its contractual rights under the ACC.

Comment 3            To accomplish that end, PIH agrees with Recommendation 1B, but suggests striking
            “in accordance with applicable requirements” because the implementation of this action may
            involve an alternatve approach. This effort will likely result in changing the way the
            information is reported or monitored, though it is unclear at this point what may be the most
            appropriate
            ____________________
            5
              Office of Management and Budget, COMPLIANCE SUPPLEMENT TO CIRCULAR A-133: DEPARTMENT OF
            HOUSING AND URBAN DEVELOPMENT, 4-14.872-1 (March 2011) ( available at
            http://www.whitehouse.gov/sites/default/files/omb/assets/OMB/circulars/a133_compliance/2011/hud.pdf).
            6
              GREEN BOOK pg. 6.
            7
              Department of Housing and Urban Development Real Estate Assessment Center, FINANCIAL DATA
            SCHEDULE LINE DEFINITION GUIDE, pg. 12 (May 2012) (available on the REAC’s website at
            http://portal.hud.gov/hudportal/HUD?src=/program_offices/public_indian_housing/reac/products/prodpha).
            Insurance proceeds are expressly carved out of line 97200 on page 48. Line 10070 calls for netting insurance
            proceeds against capital losses in calculating the amount for this line item.
            8
              Draft Audit Report Recommendation 1A.




                                                        14
            vehicle. PIH recommends amending Recommendation 1A to require more generally that PIH
Comment 4   revise its information collection as necessary to effect Recommendation 1B. Finally, PIH
            agrees that Recommendation 1C is necessary to implement successfully the conclusions of the
Comment 5   process required by Recommendation 1B, but suggests striking “that is currently being
            drafted.”

                     In conclusion, PIH disagrees with the draft audit report’s identification of a
Comment 6   significant deficiency in internal controls. However, the Department believes that this
            represents an opportunity to enhance transparency in the Public Housing program. To
            accomplish this, PIH recommends amending Recommendation 1A to more generally require
            appropriate changes to information collections to effect its revised policies and procedures. It
            agrees with Recommendations 1B and 1C, suggesting only the limited revisions mentioned
            above.




                                                  15
                         OIG Evaluation of Auditee Comments

Comment 1   We understand that FDS Line 112, Cash - Restricted - Modernization and
            Development “represents money in any form…that is only allowed to be
            expended for certain, specified modernization and development activities. The
            restriction on the use of the funds has been specified by the source of the monies,
            not by the PHA. Generally, this account includes proceeds from the sale of
            property that had been acquired with grant and development funds, insurance
            recoveries received in advance of contractor bills, or unspent bond proceeds and
            CFP drawdowns designated for future capital activities.” Since FASS-PH is
            designed to capture information at year end instead of on a transactional basis the
            OIG reviewed other potential FDS Lines where the insurance proceeds might
            have been reported. Again, although many of our sample agencies identified
            balances under these line items, there was insufficient detail in FASS-PH to
            confirm them to the insurance recovery amounts paid by the insurance provider.

Comment 2   In general, we recommend PIH collect information from public housing agencies
            related to PHA insurance recoveries. The data collected would act as an
            additional control mechanism to assist in ensuring that agencies are following the
            applicable requirements. Additionally, the data may be used by PIH staff during
            their monitoring efforts.

Comment 3   We disagree with editing out the text, as it would specifically put off PIH’s
            accountability for ensuring that agencies are not duplicating property loss repair
            costs and are crediting the applicable insurance recoveries to their Capital Fund
            programs, including Recovery Act programs. However, the OIG is open to
            discussing alternative approaches in audit resolution to address the matter.

Comment 4   We amended recommendation 1A, per PIH's request.

Comment 5   We have removed the requested text from Recommendation 1C.

Comment 6   We agree the matter is not a significant deficiency to the CFP program as a whole
            and have therefore removed the significant deficiency from the Internal Controls
            section of the report. However, the OIG still considers the finding to be a control
            weakness that increases the risk to the program. Consequently, recommendations
            to address the weakness are still in order.




                                             16
Appendix B

                                          CRITERIA


24 CFR (Code of Federal Regulations) 5.801, Uniform Financial Reporting Standards
(a) Applicability. This subpart H implements uniform financial reporting standards for…
Section (1) Public housing agencies (PHAs) receiving assistance under sections 5, 9, or 14 of the
1937 Act (42 U.S.C. 1437c, 1437g, and 1437 l ).

(b) Submission of financial information. Entities (or individuals) to which this subpart is
applicable must provide to HUD, on an annual basis, such financial information as required by
HUD. This financial information must be:

Section (1) Uniform Financial Reporting Standards. Prepared in accordance with Generally
Accepted Accounting Principles as further defined by HUD in supplementary guidance.

24 CFR 965.205, Qualified PHA-Owned Insurance Entity
(a) Contractual requirements for insurance coverage. The Annual Contributions Contract
(ACC) between PHAs and the U.S. Department of Housing and Urban Development requires
that PHAs maintain specified insurance coverage for property and casualty losses that would
jeopardize the financial stability of the PHAs. The insurance coverage is required to be obtained
under procedures that provide “for open and competitive bidding.” The HUD Appropriations
Act for Fiscal Year 1992 provided that a PHA could purchase insurance coverage without regard
to competitive selection procedures when it purchases it from a nonprofit insurance entity owned
and controlled by PHAs approved by HUD in accordance with standards established by
regulation.

2 CFR (Code of Federal Regulations) 225, Cost Principles For State, Local, and Indian
Tribal Governments, Appendix A
(C) (4) (a) Applicable Credits. Applicable credits refer to those receipts or reduction of
expenditure-type transactions that offset or reduce expense items allocable to Federal awards as
direct or indirect costs. Examples of such transactions are: purchase discounts, rebates or
allowances, recoveries or indemnities on losses, insurance refunds or rebates, and adjustments of
overpayments or erroneous charges. To the extent that such credits accruing to or received by
the governmental unit relate to allowable costs, they shall be credited to the Federal award either
as a cost reduction or cash refund, as appropriate.

(D) (1) Composition of Costs; Total Cost. The total cost of Federal awards is comprised of
allowable direct cost of the program, plus its allocable portion of allowable indirect costs, less
applicable credits.




                                                 17
Statement No. 42 of the Governmental Accounting Standards Board, Accounting and
Financial Reporting for Impairment of Capital Assets and for Insurance Recoveries
Paragraph 23. The provisions of this Statement need not be applied to immaterial items.
Appendix B, Paragraph 64. Due to the nature of insurance recoveries, the Board considers it
essential that users of the financial statements be aware when an insurance recovery has been
reported, even if the transaction is not presented as a separate line item. Therefore, the Board
believes that a disclosure of the amount and financial statement classification of insurance recoveries
should be provided if that information is not already evident from the face of the financial statements.

HUD Handbook 1840.1, REV-3, Departmental Management Control Program, Chapter 1
Section 1-2. The Department will establish and maintain a cost-effective system of management
controls to provide reasonable assurance that programs and activities are effectively and
efficiently managed and to protect against fraud, waste, abuse, and mismanagement.

Section 1-3 (A). Management controls are policies and procedures adopted by managers to
ensure that program objectives are efficiently and effectively accomplished within planned
timeframes, within budgetary limitations and with the intended quality and quantity of output.

HUD Handbook 7485.3, Comprehensive Grant Program
Chapter 2, Section 2-20: Ineligible Costs, (A) Ineligible Physical Improvement Costs, (5).
Duplication of costs for repair of a unit damaged by fire or natural disaster where costs are being
reimbursed from insurance.

Notice PIH 2009-12 (HA)
Section V. Recovery Act Capital Fund Grant Distribution. By signing the ACC Amendment, the
PHA is agreeing that capital and management activities will be carried out in accordance with all
HUD regulations, including 24 CFR Parts 905, 941 and 968 and other requirements applicable to
the Capital Fund Program, with the PHA’s current Five Year Capital Fund Action Plan as well as
the Recovery Act requirements.

Form HUD-53012A, Part A of a Consolidated Annual Contributions Contract Between
Housing Authority and the United States of America
Section 13, (B). The HA shall, to the extent that insurance proceeds permit, promptly restore,
reconstruct, and/or repair any damaged or destroyed property of a project, except with the written
approval of HUD to the contrary.




                                                  18
